   AUDIT REPORT 

PURCHASE CARD PROGRAM

      Number A-03-06 


      December 3,2003 

                                       SUMMARY

The Office of the Inspector General audited the controls over the Smithsonian Institution's
Purchase Card Program. The purpose of the audit was to determine whether internal controls
were adequate to ensure that purchase cards were being used only for authorized purposes. The
scope of the audit included an evaluation of the adequacy of purchase card controls and
procedures and testing of those controls and procedures for compliance with applicable laws,
policies, and procedures.

Overall, the internal controls over the Purchase Card Program were adequate to ensure
cardholders were using purchase cards for authorized purposes. Furthermore, our audit
disclosed no instances where purchase cards were used for unauthorized purposes.
However, we noted that improvements were needed in three areas: accuracy of financial
data, independent receiving, and on-line approval of purchases. We made four
recommendations to improve controls over the Purchase Card Program. In summary the
recommendations are:

       (1) Revise and (2) implement the Purchase Card Program system requirements to
     ensure that purchase card transactions are recorded in the Peoplesoft financial
     system in real-time.

       Revise Smithsonian Directive 314, Requisitioning-Purchase of Supplies, Equipment,
     and ServicesHandbook, and the Purchase Card Training manual to address (3)
     independent receiving, and (4) on-line approvals.

Management concurred with recommendations three, and four, and partially concurred
with recommendations one and two. Management's implementation plans for
recommendations one and two will be acceptable if the plan provides cardholders
accurate, timely, and reliable financial information to assess funds availability prior to
purchasing goods or services with the purchase card, and provides specific dates for
implementing the requirements.
                                               TABLE OF CONTENTS


1. Introduction .....................................................................................................................................1 


       A. Purpose .........................................................................;..........................................................1 


       B. Scope and Methodology ..........................................................................................................

                                                                                                                                         1


       C. Background ..............................................................................................................................    2


2 . Results of Audit ...........................................................................................................................
                                                                                                                                              5


       A. Accuracy of Financial Data .....................................................................................................
                                                                                                                                        5


        B . Independent Receiving ............................................................................................................
                                                                                                                                            8


        C. On-line Approval of Purchases ............................................................................................11 


Chart 1. Purchase Card Purchases for Billing Period of October 2002 to April 2003 .....................2 


Chart 2 . Purchase Order and Purchase Card Expenses $2.500 and Under ......................................4 


Chart 3. Proportion of Purchases Not Approved On-Line                                       ............................................................12 

Table 1. Reasons Why Approving Officials Did Not Approve Purchases On-Line                                                      ......................13 

Table 2 . Sampling of Operational and Procedural Reasons for the April 2003 Billing 

          Cycle .................................................................................................................................... 14 


Appendix A. Comments by the Chief Financial Officer ..................................................................16 


                                       ABBREVIATIONS AND ACRONYMS

                ERP                          Enterprise Resource Planning 

                GAO                          General Accounting Office 

                OC                           Office of the Comptroller 

                OCIO                         Office of the Chief Information Officer 

                OCon                         Office of Contracting 

                OPMB                         Office of Planning. Management. and Budget 

                SD                           Smithsonian Directive 

                SFS                          Smithsonian Financial System 

                STRI                         Smithsonian Tropical Research Institute 

                                     INTRODUCTION

A. Purpose

The purpose of the audit was to determine whether internal controls over the Purchase Card
Program were adequate to ensure that purchase cards were being used only for authorized
purposes. The objectives of the audit were to (1) evaluate the adequacy of internal controls and
policies and procedures, (2) assess the efficiency of operations, and (3) test transactions in order
to determine whether the Institution was compliant with policies and procedures, and internal
controls were operating as desired.

B. Scope and Methodolow

The audit was conducted from April 23,2003, to August 15,2003,in accordance with generally
accepted government auditing standards. We determined whether controls were in place to
ensure that the Purchase Card Program was operating as intended. The audit evaluated the
adequacy of the controls and procedures over the Purchase Card Program and tested
transactions for compliance with applicable laws, policies, and procedures.

We reviewed the following:

             Policies and procedures relating to the Purchase Card Program;
             Prior purchase card audits from other federal government agencies;
             The GAO Audit Guide on Auditing and Investigating the Internal Control of
             Government Purchase Card Programs;
             The purchase card process -- from card approval through payment for card
             purchases -- and the associated documents; and
             Purchase card transactions for the billing period October 2002 through April
             2003.

We conducted interviews with staff from offices involved in the purchase card process
such as the Office of Contracting (OCon),Office of the Comptroller (OC),Office of the
Chief Information Officer (OCIO),and select units that used the card. Through
interviews and transaction reviews, we reviewed purchase card controls and practices.

For the 7-month billing period from October 2002 to April 2003, cardholders made
46,405 purchases totaling approximately $5.1 million. We excluded small purchases
under $500 from the total population of 46,405 purchases to focus on the higher risk
purchases. The targeted sample population included 2,775 purchases totaling
approximately $3.2 million (see chart I). We tested a statistical sample of 79 purchases
totaling $91,000 from this targeted population of 2,775 purchases to determine whether
(1) the Institution had strong internal controls and sound policies and procedures, (2)
cardholders used purchase cards only for official expenses, and (3) approving officials
were adequately reviewing, approving, and certifying cardholder's purchases prior to
payment.
                                      Chart 1
     Purchase Card Transactions for Billing Period of October 2002 to April 2003


                      Dollars                              Transactions
                  Total $5,077,376                         Total 46,405
                                                                   2,775




     $1,844,334




                                     $3,233,043


                                                          43,630



          poser              Under $500    ~           $500 & Over El Under $500   1
                                                                                   I




For each purchase, we reviewed the purchase card transaction log, monthly card
statement, advance approval for the purchase, documentation of funds availability for the
purchase, purchase receipt and packing slip if appropriate, evidence that the goods or
services ordered were received by someone other than the cardholder, and evidence that
the cardholder obtained documented approval for restricted purchases if appropriate.
We sought to answer questions such as:
 1. Was the number of cardholder accounts manageable?

 2. Was advance approval of the purchase documented?

 3. Was funds availability documented before the purchase?

 4. Was the purchase supported by documents such as receipts, invoices, or packing
    slips?
 5. Was the cardholder the approving official's supervisor?

 6. Was there documented approval for restricted purchases?

C. Background

The purpose of the Purchase Card Program is to reduce costs by lowering the number
and dollar amount of petty cash and purchase order purchases. The Purchase Card
Program is also meant to reduce the paperwork and speed up the process for obtaining
goods and services. The Institution selected Citibank as their merchant bank for the
government purchase card, which is also known as the SmartPay card.
The Institution began the Smithsonian Purchase Card Program in May 2000. The
Institution implemented the program to operate with the Smithsonian Financial System
(SFS). Since that time, the Institution has been undergoing a fundamental change to
improve its financial systems to provide efficient, accurate, and reliable information to
further the Institution's mission, goals, and objectives. The focus of that change has been
the Institution's Enterprise Resource Planning (ERP) System. When the Institution
began replacing SFS with the ERP on October 1,2002, the Purchase Card Program was
re-configured to operate with the new ERP system. Although the Institution is moving to
have more functions processed through ERP, the Institution's units continue to use a
system of "cuff' records and manual reconciliations to facilitate day-to-day operations.

OCon establishes policy, develops training materials for purchase cards, and manages the
Purchase Card Program. OCon processes purchase card applications, maintains the
cards, monitors disputed purchases, and reviews purchase card use. If necessary, OCon
may also suspend or cancel cardholders' cards. OCon has assigned one staff member to
be the Purchase Card Program Manager. Other key people in the purchase card process
are the cardholders and approving oficials.

The cardholder is responsible for the following:

           Ensuring that funds are available prior to making purchases, and complying
           with single purchase and monthly limits;
           Procuring supplies and services consistent with the organizational
           responsibilities and for legitimate Institutional requirements;
           Receiving goods ordered and maintaining appropriate receipt records;
           Maintaining adequate documentation of all purchase transactions;
           Providing approving officials applicable receipts to enable certification of
           payment;
           Safeguarding the purchase card; and
           Resolving disputes with vendors.

The approving official is responsible for the following:

            Ensuring the adequacy of cardholder's documentation;
            Monitoring cardholder purchases to ensure that cardholders are purchasing
            within assigned limits, are not splitting purchases, and are purchasing valid
            goods and services;
            Certifying purchases for payment;
            Reporting any cardholder misuse of the card; and
            Conducting semiannual reviews to ensure that cardholders are in possession
            of their cards.
To examine whether the Institution has been able to reduce costs by decreasing the use of
purchase orders and increasing the use of purchase cards, we reviewed whether the
Institution has been increasing the use of purchase cards for purchases that do not exceed
$2,500, rather than using purchase orders. For fiscal year 2001, purchase card
transactions represented approximately $2.4 million or 10 percent of the approximately
$25 million in total purchases of $2,500 and under that were made using both purchase
cards and purchase orders. In fiscal year 2002, purchase card transactions increased to
approximately $7 million or 28 percent of the approximately $25 million in total
purchases under $2,50O(See Chart 2). As of June 30,2003, there were a total of 658
purchase card accounts and 157 approving officials.

                                         Chart 2

          Purchase Orders and Purchase Expenses $2,500 and Under          L a1
                                                                            Purchase Orders
                                            RESULTS OF AUDIT

A. Accuracy of Financial Data

Cardholders and fund managers did not use ERP financial information to determine
whether they had funds available prior to making purchases. ' This occurred because the
available budget balances within ERP were inaccurate due to delays of up to 45 days in
posting transactions. The total available budget balances for the units were overstated by
an average of $1.2 million a month for the billing periods October 2002 through April
2003. Consequently, cardholders and fund managers stated that the available budget
balances on ERP were inaccurate and they could not use them to determine if they were
operating within budget. As a result, they continued to incur costs to maintain their own
"cuff' records.

Background

A number of criteria such as Institution directives, manuals, government practices, and
ERP system documents indicate cardholders require accurate, timely, and reliable
financial information to assess funds availability prior to purchasing goods or services
with the purchase card. These criteria include the following: ( I ) Smithsonian Directive
(SD) 115, Management Controls, (2) Smithsonian Institution Purchase Card Training
manual, and (3) government practices represented by the National Institutes of Health
purchase card procedures, and (4) the ERP System Boundary Document. Smithsonian
Directive 115, Management Controls, states that, "Transactions should be promptly
recorded and accounted for in order to prepare timely accounts and reliable financial
reports." The purchase card manual requires cardholders to verify that they have funds
available prior to using a purchase card to make a purchase. The manual indicates that
the cardholder is to document the availability of funds; however, it does not indicate how
this is to be done. The National Institutes of Health purchase card procedures indicate
that purchase transactions are posted daily to the cardholder's account and the daily
posting of the purchases serve as the obligation amount. According to the ERP System
Boundary document, the goals of the ERP implementation are to (1) improve the
accuracy of financial data; (2) provide on-line, real-time financial reporting with
transaction details; and (3) to eliminate unit financial ("cuff' record) systems.




I In October 2002, the Institution implemented a number of financial modules of the Smithsonian Enterprise Resource
Planning System using Peoplesoft.

 The ERP System Boundary Document establishes a formal agreement among Institution stakeholders and the Chief
Technology Officer on the high-level requirements, cost, and schedule for the ERP system project.

3
    System Boundary Document for the Smithsonian Enterprise Resource Planning System, dated May 23,2001, page 5.
Results

Cardholders and fund managers did not use the ERP to verify funds availability for 66 of
the 79 purchase card transactions in our sample (84 percent). However, the units did
check their "cuff' records to ensure funds availability for 54 out of those 66 purchases.
Other units did not verify funds availability using either ERP or their "cuff' records for
the remaining 12 of the 66 purchases.

Based upon our sample of 79 purchase card transactions from the targeted population of
2,775, we are 90 percent confident that the number of purchase card transactions in
which the cardholder did not check for funds availability through ERP is between 2,130
and 2,506 (77 to 90 percent) out of the 2,775 transactions.

The working group that was responsible for defining the functional processes and data
requirements did not identify and address the cardholders' needs prior to implementing
the ERP modules. The cardholders needed to have the amounts of their available funds
accurately represented to assess funds availability prior to purchasing. In fiscal year 2000,
OCon intended for the units to rely on "cuff' records to verify funds availability. Prior to
the October 1,2002, implementation of the ERP purchasing module, the working group
did not identify or address the delays in posting the purchase card expenses and updating
available budget balances. OCon stated they were not given an opportunity to review
the purchase card portion of the purchasing module and to reassess the purchase card
process. The working group comprised representatives from OCon, OCIO, Smithsonian
Astrophysical Observatory, and the National Museum of Natural History. However, we
saw no evidence of OC or Office of Planning, Management, and Budget (OPMB)
participation or input in the working group's requirements for the purchase card portion
of the purchasing module. Also, the Chief Financial Officer did not ensure that the
working group responsible for the functional requirement definition for the purchase
card included cross-functional experts from OC and OPMB.

The cardholders and fund managers told us they were not using ERP to manage their
purchase card transactions because, in their view, the available budget balances on ERP
were inaccurate. This prevented the cardholders from determining whether they had
sufficient funds available for their purchases. Available budget balances in total were
overstated on average by $1.2 million monthly prior to payment to Citibank for the
billing period of October 2002 through April 2003. Having inaccurate available budget
balances has contributed to the overall erosion of the units' confidence in ERP financial
information and has encouraged them to continue to rely on their own records. This
result is contrary to the objective of the new accounting system, which is to eliminate the
need for duplicate systems.



 Working groups were established to identify processes and recommend changes to the system.



                                                          6
Conclusion

Given that the Chief Financial Officer is requesting units to increase utilization of
purchase cards, the magnitude of the inaccurate available budget balances will only
increase over time. The Institution should promptly record the expenses of its purchase
card transactions in the ERP in order to provide current and accurate accounting
information for the units. Without this information, there are increased risks of units
overspending their budgets due to a lack of accurate information and units continuing to
spend or waste money maintaining "cuff' records.

Recommendations

We recommended that the Chief Financial Officer:

    1. 	 Ensure that OCon, in coordination OCIO, OC, and OPMB, revise the Purchase
         Card Program system requirements so that purchase card transactions will reduce
         available budget balances in ERP financial records in real time.

    2. 	 Implement the revised Purchase Card Program system requirements.

Management Comments

    1. 	 Partially concur. Posting of purchase card transactions to ERP should occur more
         promptly; however, real-time posting will be difficult to achieve. Other priorities
         during the implementation of ERP took precedence over the prompt processing
         of purchase card transactions. For example, OCIO staff and the ERP
         Implementation Team were correcting other reported deficiencies in the Purchase
         Card Module of ERP and implementing critical system enhancements. A task
         group comprised of members from OCon, OC, OCIO, OPMB, and select
         cardholders and approving officials will establish realistic ERP purchase card
         transaction processing procedures to reduce the delay in posting transactions. An
         interim plan will be established by May 30,2004.

   2. 	 Partially concur. A final plan to implement the new processing procedures to be
        determined.

Office of the Inspector General Response

Management's actions to provide an interim plan by May 3 1,2004, will be acceptable if
the plan provides (1) cardholders with accurate, timely, and reliable financial information
to assess funds availability prior to purchasing goods or services with the purchase card,
and (2) specific dates for implementing the requirements. Although management stated
that other priorities took precedence over the processing of purchase card transactions,
establishing a group of members to determine an interim plan would normally have
occurred during the purchase card requirements definition phase.
B. Independent Receiving

The dual duties of purchasing and receiving goods and services were sometimes
performed by individual cardholders; however, Institution policy requires that these
duties be separated to minimize risk. There was little evidence that someone other than
cardholders were receiving goods or services. Although the Purchase Card Training
manual indicated that these duties should be separated, it was silent on how these duties
should be separated and it required the cardholder to document the receipt of goods and
services. Without the separation of purchasing and receiving functions there is an
increased risk that individuals could exceed or abuse their assigned responsibilities. If
only the cardholder documents the receipt of the purchase, there is an increased risk that
goods and services may not be received or may not be for business purposes.

Background

The purchase card manual indicates that there should be a separation of purchasing
duties and we believe that this is especially true for high value items. Separating duties
offers protection against fraudulent activity. However, the manual states that the
cardholder is responsible for purchasing, receiving, and accepting goods and services.
The cardholder is to note on the purchase card transaction log the dates of receipt and
acceptance of goods or services.

SD 115, Management Controls, states that key duties and responsibilities need to be
divided or segregated among different people to reduce the risk of error or fraud. This
should include separating the responsibilities for authorizing transactions, processing and
recording them, and reviewing the transactions. Managers should exercise appropriate
oversight to ensure that individuals do not exceed or abuse their assigned authorities.

According to internal control best practices, documentation provides the basis for
establishing responsibility for the execution and recording of transactions. Each step in
the execution and recording of a transaction should be d ~ c u m e n t e d . ~



The separation of duties between the placing of an order using the purchase card and the
receipt of the ordered goods or services was inadequate. In most cases, cardholders
documented that they had received the goods or services purchased with purchase cards.
For 57 of the 79 purchases in our sample (72 percent), there was no separation of duties
between the person purchasing and receiving goods and services. The cardholder
received the goods or services for these transactions according to the purchase card
transaction log, signed packing slip, or signed invoice.



 Walter G. Kell and Richard E. Ziegler, Modern Auditing (Boston: Warren, Gorharn & Larnont, 1980), pp. 116-117.
Of the 2,775 transactions in the targeted population (sample of purchases $500 and over),
we estimate that between 1,775 and 2,229 (64 to 80 percent) of the transactions had no
separation of duties between placing orders and the receiving of goods and services.

There are no purchase card procedures in SD 3 14, Requisitioning - Purchase of Supplies,
Equipment, and Services Handbook. There is a Purchase Card Training manual that calls
for the separation of duties, but it does not specify how this should be done and it
requires the cardholder to document the receipt of goods and services.

Although we found no examples of improper purchasing activity in our sample, we
believe that these conditions subject the Institution to the risk of improper purchases.
Independent receiving of goods or services by an individual other than the cardholder
provides additional assurance that purchased items are not acquired for personal use and
that purchased items come into the possession of the In~titution.~

Conclusion

We believe that independent documentation of receipt of items purchased by a
cardholder is a basic internal control activity that provides additional assurance that the
Institution receives items it has purchased. Although the original intent of purchase cards
was to increase efficiency and reduce costs by streamlining the purchasing process,
auditors have recommended that internal controls must be in place.' Although internal
controls should mitigate risks, managers must assess the cost of internal controls in
relation to the risk of potential loss. We believe that the purchase card policy and
procedures should require documented independent receiving for sensitive items of $500
or more in value to be consistent with the higher risk purchases addressed by the Chief
Financial Officer's announcement, dated October 18,2002, dealing with "Change in
Dollar Threshold for Accountable Non-expendable Personal Property."

Recommendation

We recommended that the Director, OCon, revise the Purchase Card Training manual
and draft a revision to SD 314, Requisitioning- Purchase of Supplies, Equipment, and
Services Handbook to require independent receiving for sensitive items of $500 or more in
value and indicate how it should be documented.




 General Accounting Office, Purchase Cards Cont~olWeaknesses Leave Army Vulnerable to Fraud, Waste and Abuse
(GAO-02-732, June 2002), page 31.

' Ibid.
Management Comments

Concur. The Purchase Card Training manual and Small Purchasing and Contracting
Handbook will be revised to address this recommendation. This action will be
accomplished by January 3 1,2004.

Ofice of the Inspector General Response

The Director's plan of action, once implemented, will be responsive to our
recommendation.
C. On-lineAvproval of Purchases

Approving officials did not authorize purchases on-line in ERP for approximately $2
million out of $5 million in purchase card transactions for the 7-month billing period
September 26,2002, through April 25,2003.' The lack of on-line approval occurred for
the following reasons:

                Operational and procedural problems;
                The Smithsonian Tropical Research Institute had not yet converted to
                ERP;
                A system problem prevented the approving official from approving
                purchases on-line when the card statement contained more than 250
                purchases; and
                The working group, according to the system design notes, did not
                identify exception reports as a requirement.

The Institution has not established a fully automated process to bridge purchasing data
from Citibank to ERP. OCIO currently assists OCon in transferring this data. Upon
implementation, ERP did not have the capability to allow OCon to identify those
approving officials that did not approve purchases on-line. Without this information,
OCon could not determine why these approving officials did not approve purchases on-
line and ensure that they approve purchases on-line in the future. Our sample of
purchase card transactions indicated that when on-line approvals were missing, the
majority of purchases were manually approved. Although we did not observe any
improper purchases during our review, the lack of on-line approvals increases the risk
that improper purchases may be made that are not essential to execute Institution
programs.

Background

After OCIO downloads the monthly billing of purchase card transactions from Citibank
into ERP financial reports, OCon notifies the cardholders and approving officials that
they have two weeks to verify, redistribute costs, and approve the purchase card
transactions on-line in ERP. When that two-week period expires, whether or not the
approving official have approved the purchases, OCIO overrides payment approval for all
purchase card transactions that were not in the approved status in ERP so that Citibank
can be paid.

The Purchase Card Training manual assigns the approving official the responsibility for
approving the cardholder's charges within ERP and for validating the cardholder's
purchases for payment to Citibank. The Purchase Card Training manual requires that
approving officials review all cardholder statements after they have been verified on-line
by the cardholder and, if everything is in order, authorize the purchases on-line.

 See Chart 3.
SD 115,Management Controls, states that management controls must provide reasonable
assurance that assets are safeguarded against waste, loss, unauthorized use, and
misappropriation. Institution managers must take systematic and proactive measures
such as the following:

               Develop and implement cost-effective management controls;
               Assess the adequacy of management controls in both Federal and Trust
               programs and operations;
               Identify needed improvements; and
               Take corrective action.

Results

Approving officials did not complete on-line approval of approximately $2 million, or 38
percent, of the $5 million total in purchase card transactions from September 26,2002,
through April 25,2003 (See Chart 3). OCon did not inform the units that they had not
completed their on-line approval for these purchases.

                                          Chart 3

                      Proportion of Purchases Not Approved On-Line
1   Amount




                  Oct-02     Nov-02    Dec-02     Jan-03   Feb-03     Mar-03     Apr-03
                                         Billing Period
                  1        PurchasesNot Approved On-line            Total Purchases


As indicated in table 1 on page 13, there are a number of reasons for this condition: (1)
operational and procedural problems, (2) Smithsonian Tropical Research Institute
(STRI) was not converted to ERP, (3) system limitations, and (4) the working group did
not identify exception reports as a requirement.
                                       Table 1 

          Reasons Why Approving Officials Did Not Approve Purchases On-Line 



                Operational & Procedural Problems9                     $1,348,682            70%     1

                STRI Not Converted to ERP                                 376.327            20%     1

                ERP"                                                      194,601            10%
                                               Total                   $1,919,610           100%

Approving officials did not complete on-line approval for the reasons noted in Table 1.
Operational and procedural problems were the most significant reason approving
officials did not approve purchases on-line (see Table 1). Another reason why approving
officials did not approve purchases on-line in ERP is that OCon did not ensure that the
cardholders and approving officials were set up with the proper security profile and
trained to use ERP prior to implementation. OCon has told us this was only a problem in
the first quarter of fiscal year 2003.

Smithsonian Tropical Research Institute (STRI) had not converted to ERP, so they were
unable to verify or approve their purchase card purchases on-line. STRI's purchases
accounted for $376,000 of the approximately $2 million in total purchases that OCIO
approved on-line in ERP, or 20 percent. During our audit STRI converted to ERP.

Approving officials were also unable to approve purchase card purchases on-line because
ERP currently does not allow cardholders or approving officials to load large card
statements with more than 250 purchases. According to OCon officials, these purchases
were primarily FedEx shipping fees. Although OCon officials have reported the 250-
transaction on-line approval limitation to OCIO management, the limitation remains
unresolved. FedEx shipping fees accounted for $195,000 (or 10 percent) of the
approximately $2 million total of the purchases not approved on-line.

During the development of the system requirements, the purchasing workgroup did not
identify exception reporting as a requirement. As a result, there was no exception report
to identify those approving officials who failed to do their on-line approvals. OCon
realized that there was no exception report after the implementation of the ERP
purchasing module, but they did not request that the report be added to the system
requirements. OCIO wrote a program that converted the status of the purchases from
unapproved to approved, but the program did not identify who the approving officials


 See Table 2.
10
   The ERP system can display up to 250 transactions per card statement. Because the number of purchase card
transactions in some units exceeded the 250 per month limitation, approving oficials could not approve those
purchases on-line. Those purchases represented approximately ten percent of the dollar amount of purchases which
could not be approved on line.
were. Until our audit, OCon was unaware of who these people were and was unable to
contact them to correct the problem.

To explain in more detail the most significant cause behind the $2 million in purchases
that were not approved on-line, we looked more closely at the $1.3 million in purchases
that were not approved on-line because of operational and procedural problems. We
judgmentally selected nine cardholders who had purchases in the Apri1.2003 billing
period that were not approved on-line, totaling $83,512 out of the total $1.3 million in
purchases. We contacted the cardholders' approving officials to determine why they did
not approve those purchases on-line. The results are in Table 2.

                                      Table 2 

    Sampling of Operational and Procedural Reasons for the April 2003 Billing Cycle 





Although we did not observe any improper purchases during our review, the lack of on-
line approval increases the risk that improper purchases may be made and not detected.
For example, one unit had $33,260 in purchases for the April billing period where there
was no on-line approval and the approving official had not reviewed the supporting
documentation. Purchases such as these could be improper and any improprieties would
not be detected.

Conclusion

Improvement is needed to ensure approving officials fulfill their responsibilities to
approve purchase card transactions on-line. The Institution is taking corrective action to
convert STRI to ERP and fur the system problem to address the lack of on-line approval
related to these areas. However, OCon needs to establish a control to follow up on
approving officials who did not approve purchases on-line because of operational and
procedural problems.




' I Of the $6,130 in on-line approval errors, $3,635 was approved on-line by an approving official who was unable to

explain why it did not show up as approved in the ERP. For the remaining $2,495, the approving official thought she
had approved all of the transactions, but overlooked the last three purchase transactions on the purchase card
statement.
Recommendation

We recommended that the Director, OCon, include procedures in the Purchase Card
Training manual and in SD 314, Requisitioning - Purchase of Supplies, Equipment, and
Services Handbook so that OCon ensures that approving officials are approving purchases
on-line.

Management Comments

Concur. Soon after ERP was implemented, OCon determined that there was no standard
ERP delivered report available to determine which approving officials were not approving
purchase card transactions in the ERP. In May 2003, OCIO staff developed and
implemented a report now available to the Purchase Card Program. However, to run this
report and compile and analyze the data is very labor intensive. OCon will coordinate
with OC and work with OCIO staff to improve this report for the Purchase Card
Program Manager's use. The Purchase Card Training manual and Small Purchasing and
Contracting Handbook will be revised to expand on the on-line approval requirement
and address the oversight procedures for enforcing this requirement. This action will be
completed by May 31,2004. The software deficiencies that prevented the viewing and
reconciling of extensive transactions remain a problem. OCon has informed OCIO and
the ERP Implementation Team of this issue. OCon also indicated that STRI has
converted to ERP and is now able to approve purchases on-line.

Office of the Inspector General Response

The Director's plan of action, once implemented, will be responsive to our
recommendation.
WRITTEN COMMENTS BY THE CHIEF FINANCIAL OFFICER                                                      APPENDIX A



    0 Smithsonian Institution
                Chief Financial Officer


1      Date     October 17,2003
                                                                                                                  I
I          TO


           cc
                Thomas D. Blair, lnspector General

                Dennis R. Shaw, Chief Information Officer
                                                                                                                  I
                John W. Cobert, Director, Office of Contracting
                B N C ~A. Dauer, Director, Office of Planning, Management and Budget
                Catheryn C. Hummel, Comptroller

       F        Alice C. Maronl. Chief Financial O    K   C    @    @    ~

     Subject    Response to the Draft Report, Office of the Inspector General Audit A-03-06, Purchase
                Card Program

                   Thank you for providing me a copy of the draft report on your audit of the Purchase
                Card Program, audit A-03-06. My staff has reviewed the issues presented in the report.
                On behalf of the Chief Financial Officer (CFO) organization I am providing the comments
                below which address each of the recommendations or actions suggested. Thank you for
                the opportunity t o comment prior t o issuance of your final report.

      Issue I   Cardholders and fund managers did not use the PeopleSoft financial information t o
                determine if funds were available prior t o making purchases because PeopleSoft provided
                inaccurate fund balances due t o delays of up t o 45 days i n posting purchase card
                transactions. This prevented verification of sufficient funds available unless units used
                their cuff records. The Institution should promptly record the expenses of its purchase
                card transactions in order to provide current and accurate accounting information for the
                units


I               It is recommended that the Chief Financial Officer:

                     Ensure that the Office of Contracting (OCon), i n coordination with the Office of the
                                                                                                                  I
                     Chief Information Officer (OCIO), Office of the Comptroller (OC), and the Office of
                     Planning, Management and Budget (OPMB), revises the Purchase Card Program
                     system requirements so that purchase card transactions will reduce available
                     balances i n PeopleSoft financial records in real-time.


I                    Implement the revised Purchase Card Program system requirements
                                                                                                                  I
I                    Comment: We partially concur with both recommendations.

                     We agree that the delay in posting purchase card transactions should be reduced,
                                                                                                                  I
                     but real-time reduction of balances in the financial system will be difficult t o achieve.
                     When the purchase card module of PeopleSoft was implemented, the original
                     timeframes for processing payments and redistribution of charges by the units
                     remained the same as for the previous financial system. The number of purchase
                     card transactions was small and the impact on account balances was minimal. As

                Victor Building, Suite 44W
                750 9th Street, NW, MRC 987
                Washington DC 205600987
                202.275.2020 Telephone
                202.275.2252 Fax
Page 2    - Thomas D.   Blair, Inspector General


              the number of purchase card transactions and associated dollars has grown, it has
              had a greater impact on unit fund balances. Therefore, the purchase card
              transactions need to be updated more promptly in PeopleSoft.

              During the implementation of the purchase card module in PeopleSoft it was
              determined that the software has many shortcomings in its basic design. During the
              first quarter FY 2003, deficiencies of the Purchase Card Module of PeopleSoft were
              presented to OCIO staff and the ERP Implementation Team. Critical enhancements
              to the system were also discussed and prioritized. Correcting these software
              deficiencies and implementing critical enhancements took precedence over the need
              to more frequently load purchase card transactions.

              In addressing this recommendation, OCon, OCIO and OC will review the current
              process, determine the priority for enhancing system capabilities, and make
              procedural changes. OCon staff will create and lead a task group to establish and
              implement realistic PeopleSoft purchase card transaction processing procedures to
              reduce the delay i n posting transactions. 'The task group members will include: the
              Purchase Card Program Manager, OCon; Associate Director for Procurement
              Programs, OCon; select members of the Smithsonian purchase cardholder and
              approving official community; Financial Management Systems staff from OCIO;
              policy and operations staff from OC; and appropriate staff from OPMB. An interim
              plan will be established by May 31, 2004.

              Action completion date: Final plan implementation to be determined.

 Issue2    Cardholders did not always obtain or document the advance approval of their purchases.
           The purchase card training manual specifies the need for the cardholder to obtain
           approval, but it is not clear regarding when approval should be obtained, whether it
           should be documented and how, and who should approve it. Without documented
           advanc'e approval of purchases, the cardholder is at risk and it is more difficult for the
           approving official to determine when purchases are necessary.

           It is recommended that the Director, OCon,

              Revise the Purchase Card Training manual t o require advance approval for sensitive
              items of $500 or more in value, indicate how this approval should be documented,
              and who should provide it. SD 314, Requisitions - Purchase o f Supplies, Equipment,
              and Services Handbook, should also be revised to include the Purchase Card
              Program.

              Comment: Concur.

              A requirement that advanced approval be obtained by cardholders prior to completing
              purchases was not recommended in GSA purchase card program implementation
              guides that we referred t o at the time the Smithsonian purchase card program was
              being developed and implemented. The statement in the training manual, "...obtain
              appropriate approvals," refers to cardholder responsibilities for ensuring that program
              supervisors concur with requested purchases, and that the offices which must dear
              the types of purchases included on the Restrictions t o Purchasing List are contacted.
              OCon will clarify the language in the section of the Purchase Card Training Manual
Page 3   - Thomas D. Blair, Inspector General

             that covers purchases of non-expendable personal property. The Small Purchasing
             and Contractincl Handbook for implementing SD 314,       ,ani tcartnCoda-
             will also be revised t o address this recommendation. By addressing this
             recommendation, OCon will emphasize the importance of cardholder and approving
             official responsibilities i n assuring that sensitive property of $ 5 0 0 or more in value,
             as identified i n the Prooerty Manaaement Handbook for implementing SD 315,
              Propertv Manaqement, is properly accounted for, tagged, and entered in the
              Smithsonian fiscal and personal property inventory records.

             Action completion date: January 31, 2004

 1ssue3 The duties of purchasing and receiving goods and services were performed by
          cardholders, however, Institution policy requires that these duties be separated. Without
          the separation of purchasing and receiving functions there is an increased risk that
          individuals could exceed or abuse their assigned responsibilities, or that goods and
          services may not be received or may not be for business purposes. Independent
          receiving of goods or services by an individual other than the cardholder provides
          additional assurance that purchased items are not acquired for personal use and that
          purchased items come into the possession of the Institution.

          It is recommended that the Director, OCon,

              Revise the Purchase Card Training manual t o require independent receiving for
              sensitive items of $ 5 0 0 or more i n value and indicate h o w it should be documented.
              S D 3 14, Requisitioning - Purchase of Supplies, Equipment and Services Handbook,
              should also be revised to reflect this requirement.

              Comment: Concur.

              Cardholders are often the individuals making the purchases directly from vendors,
              and receive items at that same time. When an item is delivered it is most often t o
              the purchase cardholder. Cardholders include i n their purchase card transaction logs
              the names of employees who are requesting purchases. When items and services
              are delivered directly t o the requesting unit, cardholders follow up t o verify that
              purchases have been received and obtain packing slips and receipts for the delivered
              items and services. As approving officials perform their responsibilities for validating
              completed purchases, they provide a secondary assurance that items and services
              have in fact been received, were necessary for unit operations and activities, no
              misuse or abuse of purchase cards has occurred, and that capitalized non-personal
              property and sensitive property is accounted for, tagged and entered into the
              Smithsonian fiscal and property inventory records.

              The Purchase Card Program Government-wide is intended t o speed the acquisition of
              micro-purchases (defined as $2,500 or less). Government-wide the decision has
              been made t o treat micro-purchases differently from all other purchases. It has not
              been a requirement at the Smithsonian that someone other than the ordering
              cardholder verify receipt of items and services purchased. However, t o minimize risk
              of sensitive items not being properly accounted for i n the Smithsonian's fiscal
              records, the Director, OCon will established and implement policy that requires
              cardholders t o obtain third party verification o f receipt of sensitive items ordered and
Page 4    - Thomas D. Blair, Inspector General

              paid for with purchase cards. Third party verification of receipt will be required from
              individuals other than the ordering cardholder.

              The independent receiving information in the Purchase Card Program Training Manual
              is reference to general purchase and receiving requirements. It will be revised to
              address required third party verification for receipt of sensitive items ordered and
              paid for with purchase cards. Procedures for documenting receipt of sensitive items
              will also be included in the cardholder and approving official responsibilities cited in
              the Small Purchasing and Contractinq Handbook for implementing SD 314,
              V              g              .
              Action completion date: January 31,2004

 Issue4    Approving officials did not authorize purchases on-line in PeopleSoft for a total of
           approximately $2 million out of $5 million in purchase card transactions for the 7-month
           billing period September 26,2002 through April 25, 2003. The lack of on-line approvals
           occurred for the following reasons: operational and procedural problems; the
           Smithsonian Tropical Research Institute (STRI) had not yet converted to PeopleSoft; a
           system problem prevented the approving officials from approving purchases on-line
           when the card statement contained more than 250 purchases; and, the ERP working
           group, according to the system design notes, did not identify exception reports as a
           requirement.

           It is recommended that the Director, OCon,

               Include procedures in the Purchase Card Training manual so that OCon ensures that
               approving officials are approving purchases on-line. SD 314, Requisitioning   -
               Purchase of Supplies, Equ1;ornent and Services Handbook, should also be revised to
               reflect this requirement.

               Comment: Concur.

               Soon after PeopleSoft was implemented, OCon determined that there was no
               standard PeopleSoft delivered report availabte to determine which approving officials
               were not approving purchase card transactions in PeopleSoft. In addition, there was
               the software deficiency of not being able to view and reconcile extensive lists of
               transactions. OClO and the ERP Implementation team were made aware of these
               issues. In May 2003,OClO staff developed and implemented a report now available
               to the Purchase Card Program Manager that assists in identifying which approving
               officials are not performing this required function. However, to run this report and
               compile and analyze the data is extremely labor-intensive. Problems with viewing
               lengthy lists of transactions still exist and require approving officials to devote
               significant blocks of time to perform their online review and approval responsibilities.
               STRI has converted to PeopleSoft and is now able to approve purchases online.

               To address this recommendation, OCon will coordinate with OC and work with OClO
               staff as appropriate, to improve the report available t o the Purchase Card Program
               Manager so that the following may occur:

               1. On a monthly basis the Purchase Card Program manager may discern which
                  approving officials have not approved purchase card transactions on-line within
Page 5   - Thomas D. Blair, Inspector General

                 the prescribed timeframes and send an email t o those approving officials
                 requesting reasonis) for non-compliance.

             2. 	 Approving officials who do not respond, or whose response does not include
                  satisfactory explanations for not approving transactions online, will be given one
                  warning and then an email will be sent t o the appropriate Unit Director informing
                  himlher of the non-compliance.

             3. 	 Purchase cards assigned within negligent approving officials' jurisdictions will be
                 suspended until completed paperwork is sent to OCon, with cardholder and
                 approving official certification on Citibank statements and other documentation
                 requested by the Purchase Card Program Manager.

             4. 	 Approving officials unwilling to perform this duty on-line will lose their approval
                 authority and units will be required to appoint replacements.

              Information regarding the responsibilities for online approvals cited in the Purchase
              Card Training Manual will be expanded t o include the procedures which have already
              been implemented. These procedures are now being covered i n purchase card
              training classes and during presentations by the Purchase Card Program Manager on
              the steps necessary to reallocate expenditures in Peoplesoft. These written
              requirements and procedures will also be incorporated into the Small Purchasing and
              Contractins Handbook for implementing SD 37 4, Procurement and Contracting
              policy.

              Action completion date: May 3 1 , 2004

             I am gratified t o know that the purchase card program administration and
          management oversight is generally i n good order and that no instances of abuse or
          misuse of purchase cards were identified. The delegations of authority issued by the
          Director, OCon, clearly cite the purchasing authority and spending limitations that must
          be adhered to by cardholders, as well as the administrative and recordkeeping
          requirements of cardholders and approving officials. Decisions t o waive program
          requirements are made by the Director, OCon when unit purchase requirements are
          outside of those normally allowed t o be completed with the card.

              OCon takes very seriously its responsibility for the Institution's purchase card
          program. OCon will continue its periodic reviews of purchase cardholder and approving
          official activities t o assure that purchases of required goods, supplies and services by
          the units are completed i n the most cost-effective and efficient manner possible.
          Improvements t o procedural and recordkeeping requirements shall be made whenever
          necessary t o prevent fraud, waste and abuse in the program. I thank you and your staff
          for the time dedicated to your assessment of the purchase card program during this
          audit.

              Please direct any questions you may have regarding this response t o Curtis 0.
           Sanchez, OCon, at 202.275.1 174 or by e-mail to SanchezC@si.edu.
